U.S. Department of Justice
Off ice of the Solicitor General

Washington, D.C. 20530

February 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Cedar Point Nursery, et al. v. Victoria Hassid, et al., No. 20-107
Dear Mr. Harris:
This case involves a California regulation that allows union organizers to enter petitioners’
property to speak with workers employed there, but that restricts the time, place, and manner of
that access. On January 7, 2021, the United States f iled a brief as amicus curiae contending that
the regulation effects a per se taking of petitioners’ property. The purpose of this letter is to notify
the Court that the previously f iled brief no longer represents the position of the United States.
Following the change in Administration, the Department of Justice has reconsidered the
government’s position in this case, and the United States is now of the view that the California
regulation does not effect a per se taking under this Court’s precedents. The regulation does not
authorize a “permanent physical occupation,” Loretto v. Teleprompter Manhattan CATV Corp.,
458 U.S. 419, 434 (1982), or grant the general public any “permanent and continuous right” to
cross petitioners’ property, Nollan v. California Coastal Commission, 483 U.S. 825, 832 (1987).
Rather, the access authorized is “temporary and limited in nature.” Loretto, 458 U.S. at 434; see
id. at 434 n.11 (observing that a provision of the National Labor Relations Act, 29 U.S.C. 151 et
seq., that “requir[es] companies to permit access to union organizers,” subject to various time,
place, and manner restrictions, grants only “ ‘temporary and limited’ ” access and therefore does
not effect a per se taking) (citation omitted). This Court has previously recognized that such “temporary limitations on the right to exclude” differ from “[t]he permanence and absolute exclusivity
of a physical occupation” and accordingly “are subject to” the “balancing process” adopted in
Penn Central Transportation Co. v. New York City, 438 U.S. 104, 124 (1978). Loretto, 458 U.S.
at 435 n.12.
It is therefore the position of the United States, in line with this Court’s cases, that the
California regulation—like the authorization of temporary entry by government off icials for law
enforcement, inspection, and similar purposes—does not constitute a per se taking. That position

accords with the United States’ longstanding view—which the government has repeatedly articulated in this Court and lower courts—that physical entry on property short of a permanent occupation does not warrant the application of a categorical rule and is instead appropriately analyzed
under a case-specif ic framework.
I would appreciate it if you would circulate this letter to the Members of the Court.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

2

20-0107
CEDAR POINT NURSERY, ET AL.
HASSID, VICTORIA, ET AL.

PAUL J. BEARD
FISHER BROYLES LLP
4470 2. SUNSET BLVD
SUITE 93165
LOS ANGELES, CA 90027
818-216-3988
PAUL. BEARD@FISHERBROYLES.COM
MICHAEL M. BERGER
MANATT, PHELPS & PHILLIPS
2049 CENTURY PARK EAST
SUITE 1700
LOS ANGELES, CA 90067
MMBERGER@MANATT.COM
CARL GALE BORDEN
2600 RIVER PLAZA DR.
SACRAMENTO, CA 95833
916-561-5659
CBORDEN@CFBF.COM
ANTHONY THOMAS CASO
CENTER FOR CONSTITUTIONAL
JURISPRUDENCE
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
877-855-3330
CASO@CHAPMAN.EDU

BRYAN GREGG CLEVELAND
OKALAHOMA ATTORNEY GENERAL'S
OFFICE
313 NE 21ST STREET
OKLAHOMA CITY , OK 73105
405-521-3921
BRYAN.CLEVLAND@OAG.OK.GOV
CYNTHIA FLEMING CRAWFORD
AMERICANS FOR PROSPERITY FOUNDATION
1310 N. COURTHOUSE ROAD
7TH FLOOR
ARLINGOTN, VA 22201
571-329-2227
CCRAWFORD@AFPHQ.ORG
LEON DAYAN
BREDHOFF & KAISER, P.L.L.C.
805 15TH STREET, N.W.
SUITE 1000
WASHINGTON, DC 20005
202-842-2600
LDAYAN@BREDHOFF.COM
JOHN D. ECHEVERRIA
VERMONT LAW SCHOOL
164 CHELSEA STREET
SOUTH ROYALTON, VT 05068
802-831-1386
JECHEVERRIA@VERMONTLAW.EDU
WENCONG FA
PACIFIC LEGAL FOUNDATION
930 G. STREET
SACRAMENTO, CA 95814
916-419-7111
WF@PACIFICLEGAL.ORG

MATTHEW JAMES GINSBURG
AMERICAN FED. OF LABOR AND CONGRESS
OF INDUSTRIAL
815 16TH ST., NW
WASHINGTON, DC 20006
MGINSBURG@AFLCIO.ORG
BRIANNE JENNA GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG
TOBY J. HEYTENS
SOLICITOR GENERAL OF VIRGINIA
202 NORTH NINTH STREET
RICHMOND , VA 23219
804-786-7240
THEYTENS@OAG.STATE.VA.US
STEFFEN NATHANAEL JOHNSON
WILSON SONSINI GOODRICH & ROSATI
1709 K STREET, NW
WASHINGTON, DC 20006
SJOHNSON@WSGR.COM
TIMOTHY VARTKES KASSOUNI
PELICAN INSTITUTE FOR PUBLIC POLICY
400 POYDRAS STREET
SUITE 900
NEW ORLEANS, LA 70130
504-952-8016
TIMOTHY@KASSOUNILAW.COM

MATTHEW LITTLETON
DONAHUE, GOLDBERG, WEAVER &
LITTLETON
1008 PENNSYLVANIA AVE., SE
WASHINGTON, DC 20003
MATT@DONAHUEGOLDBERG.COM
KATHARINE MINKEL MAPES
SPIEGEL & MCDIARMID LLP
1875 EYE STREET, NW
SUITE 700
WASHINGTON, DC 20006
KATHARINE.MAPES@SPIEGELMCD.COM
MARIO MARTINEZ
MARTINEZ AGUILASOCHO & LYNCH
P.O. BOX 1998
BAKERSFIELD, CA 93303
THOMAS RYAN MCCARTHY
CONSOVOY MCCARTHY PLLC
1600 WILSON BOULEVARD
SUITE 700
ARLINGTON, VA 22209
TOM@CONSOVOYMCCARTHY.COM
JONATHAN B. MILLER
PUBLIC RIGHTS PROJECT
4096 PIEDMONT AVE.
#149
OAKLAND, CA 94612
646-831-6113
JON@PUBLICRIGHTSPROJECT.ORG

JOHN PAGLIARO
THE NEW ENGLAND LEGAL FOUNDATION
150 LINCOLN STREET
BOSTON, MA 02111
617-695-3660
JOHNPAGLIARO@NELFONLINE.ORG
JOSHUA PATASHNIK
CALIFORNIA DEPT OF JUSTICE
455 GOLDEN GATE
SUITE 11000
SAN FRANCISCO, CA 94102
415-510-3896
JOSH.PATASHNIK@DOJ.CA.GOV
JEFFREY HALLETT REDFERN
INSTITUTE FOR JUSTICE
901 NORTH GLEBE ROAD
SUITE 900
ARLINGTON, VA 22203
612-308-1084
JREDFERN@IJ.ORG
CATHERINE KILEY RUCKELSHAUS
NATIONAL EMPLOYMENT LAW PROJECT
90 BROAD STREET
1100
NEW YORK, NY 100048
646-693-8221
CRUCKELSHAUS@NELP.ORG
JEFFREY MICHAEL SCHWAB
LIBERTY JUSTICE CENTER
208 SOUTH LASALLE STREET
SUITE 1690
CHICAGO, IL 60604
312-637-2280
JSCHWAB@LIBERTYJUSTICECENTER.ORG

ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
ROBERT H. THOMAS
DAMON, KEY, LEONG, KUPCHAK, HASTERT
1600 PAUAHI TOWER
1003 BISHOP STREET
HONOLULU, HI 96813
808-531-8031
RHT@HAWAIILAYWER.COM
JOSHUA PAUL THOMPSON
PACIFIC LEGAL FOUNDATION
930 G STREET
SACRAMENTO, CA 95814
916-419-7111
JTHOMPSON@PACIFICLEGAL.ORG
HENRY M. WILLIS
SCHWARTZ, STEINSAPIR, DOHRMANN &
SOMMERS
6300 WILSHIRE BLVD.
SUITE 2000
LOS ANGELES, CA 90048-4700
323-655-4700
CRISTEN ALICE WOHLGEMUTH
MOUNTAIN STATES LEGAL FOUNDATION
2596 S. LEWIS WAY
LAKEWOOD , CO 80227
303-292-2021
CRISTEN@MSLEGAL.ORG

